                               TIRNO-92-C-0014
                            Incurred Cost Audit for
                               Fiscal Year 2001

                                   July 2005

                     Reference Number: 2005-1C-065




  This report has cleared the Treasury Inspector General for Tax Administration
disclosure review process and information determined to be restricted from public
                 release has been redacted from this document.
                                      DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                              July 7, 2005


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE


       FROM:             (for) Daniel R. Devlin
                               Assistant Inspector General for Audit (Headquarters Operations
                               and Exempt Organizations Programs)

       SUBJECT:               TIRNO-92-C-0014 Incurred Cost Audit for Fiscal Year 2001
                              (Audit # 20051C0220)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s April 8, 2002,
       certified final indirect cost rate proposal and related books and records for
       reimbursement of Fiscal Year (FY) 2001 incurred costs. The purpose of the
       examination was to determine the allowability of direct and indirect costs and to
       establish audit-determined indirect cost rates for July 1, 2000, through June 30, 2001.
       The proposed rates apply primarily to the flexibly priced contracts.
       For FY 2001, the DCAA considered the contractor’s accounting system to be adequate
       for the accumulation, reporting, and billing of costs on Federal Government contracts.
       The DCAA also considered the internal controls adequate for the purchasing and
       estimating systems. However, according to the DCAA, the contractor’s billing system is
       considered inadequate in part, but the deficiencies relate to late provisional billing rate
       submissions and did not affect this incurred cost audit.
       The DCAA opined that the contractor’s proposed indirect rates are acceptable as
       proposed. Also, claimed direct costs are acceptable and provisionally approved
       pending final acceptance. Additionally, the costs noted on the schedule of cumulative
       allowable costs represent costs that are considered allowable under each contract and
       are therefore reimbursable.
       This DCAA report was issued on April 7, 2004; however, the Treasury Inspector
       General for Tax Administration (TIGTA) did not receive the report until May 2005. The
       Internal Revenue Service (IRS) previously received a copy of the report directly from the
       DCAA. We are transmitting this report to you to enable the IRS to track any financial
                                           2

accomplishments derived from negotiations with the contractor based on the results of
this DCAA report.
The information in this report should not be used for purposes other than those intended
without prior consultation with the TIGTA regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
